  DEPARTMENT OF HOMELAND SECURITY
          Office of Inspector General

                   National Flood Insurance Program
                     Management Letter for DHS’
                            Fiscal Year 2004
                       Financial Statement Audit
                               (Redacted)




  Notice: The DHS OIG has modified this report for public release. The modifications were made
  pursuant to subsection (b)(4) of the Freedom of Information Act, 5 U.S.C. §552(b)(4). A review
  under the Freedom of Information Act will be conducted upon request.




                                   Office of Audits


OIG-05-48                                                 September 2005
                                                                        Office of Inspector General

                                                                        U.S. Department of Homeland Security
                                                                        Washington, DC 20528




                                             Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports published by our office
as part of our DHS oversight responsibility to promote economy, effectiveness, and efficiency within
the department.

This report is an abbreviated version of our official use only management letter report specific to the
National Flood Insurance Program (NFIP). It contains observations and recommendations related to
internal control at the NFIP that were not required to be reported in the Independent Auditor’s
Report on DHS’ FY 2004 financial statements. The independent accounting firm KPMG LLP
(KPMG) performed the audit of DHS’ FY 2004 financial statements and prepared this management
letter. Material weaknesses and other reportable conditions were reported, as required, in KPMG’s
Independent Auditor’s Report, dated November 8, 2004, that was included in the FY 2004 DHS
Performance and Accountability Report. KPMG is responsible for the attached management letter
dated December 30, 2004, and the conclusions expressed in it. We do not express opinions on DHS’
financial statements or internal control or conclusions on compliance with laws and regulations.

The information herein has been discussed in draft with appropriate management officials. It is our
hope that this report will result in more effective, efficient, and economical operations. We express
our appreciation to all of those who contributed to the preparation of this report.




                                             Richard L. Skinner
                                             Inspector General
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036




December 30, 2004

Office of Inspector General and
Administrator, Mitigation Division, Emergency Preparedness and Response
Department of Homeland Security
Washington, DC

Ladies and Gentlemen:

We were engaged to audit the consolidated balance sheet of the U.S. Department of Homeland Security
(DHS) as of September 30, 2004, and the related consolidated statements of net cost, changes in net
position, financing, and custodial activity, and combined statement of budgetary resources (hereinafter
referred to as “financial statements”), for the year then ended. Because of matters discussed in our
Independent Auditors’ Report dated November 8, 2004, the scope of our work was not sufficient to enable
us to express, and we did not express, an opinion on the financial statements.
In connection with our fiscal year 2004 engagement, we were also engaged to consider DHS’s internal
control over financial reporting and to test DHS’s compliance with certain provisions of applicable laws,
regulations, contracts, and grant agreements that could have a direct and material effect on these financial
statements. Our procedures may not include examining the effectiveness of internal controls and do not
provide assurance on internal control. We have not considered internal control since the date of our report.
In addition, pursuant to a request made by the DHS Office of Inspector General (OIG), we have conducted
additional tests of controls relating to flood insurance activities of the National Flood Insurance Program
(NFIP), which is administered by the Mitigation Division, a component within DHS Emergency
Preparedness and Response. The objective was to conduct tests of compliance with controls related to
financial, underwriting, and claims activities for five Write Your Own (WYO) companies participating in
the NFIP and of the NFIP contractor for the Direct Program.
In connection with the additional tests of controls relating to flood insurance activities of the NFIP and our
engagement to audit the financial statements of the DHS as of and for the year ended September 30, 2004,
we noted certain matters involving controls over NFIP flood insurance activities and compliance with
NFIP rules and regulations that are presented for your consideration. These comments and
recommendations, which have been discussed with the appropriate members of management of the WYO
insurance companies and of the Direct Program servicer, are intended to improve internal control,
compliance with applicable rules and regulations, or result in other operating efficiencies, and are
summarized in section I of this letter. In accordance with the OIG’s requirements, this letter contains the
following section:
    I.   Summary of Recommendations




                                 KPMG LLP. KPMG LLP, a U.S. limited liability partnership, is
                                 a member of KPMG International, a Swiss association.
This letter is intended solely for the information and use of DHS management, the WYO insurance
companies, the Direct Program servicer, and the OIG, and is not intended to be and should not be used by
anyone other than these specified parties.
Very truly yours,
                                                                                                      Exhibit I

                                         Summary of Recommendations



                                               A           B            C             D           E          F
        Principal Recommendations
A.      Conform Financial Reporting to NFIP Regulations
1.      Ensure amounts included on the
        financial reports agree to                                                    X
        supporting detail

B.      Investigate Claim File Matters and Correct As Necessary
1.      Ensure timely receipt of
                                            X         X                 X             X           X
        Preliminary Reports
2.      Ensure timely receipt of Final
                                            X                                         X           X
        Reports
3.      Ensure timely receipt of Proofs
                                            X                                                     X
        of Loss
4.      Ensure that either a Public
        Notary or the agent witnesses                 X
        Proofs of Loss
5.      Ensure Preliminary Reports are
                                                                                      X
        dated
6.      Ensure timely claim payment
        once the claim examination is                                                 X
        completed
7.      Ensure Proofs of Loss are
                                                                                                             X
        signed
8.      Ensure that payments made to
        insureds are correct and in
                                                                                                             X
        compliance with NFIP
        regulations

C.      Enhance Underwriting Processes
1.      Process new business policy
        applications within NFIP               X
        required timeframes
2.      Process policy endorsements
        within NFIP required                                            X                                    X
        timeframes
3.      Ensure correct application of
        annual premium rates to                                                       X
        policies


     Each letter in the first row of the table represents one company at which tests of compliance with controls
     related to financial, underwriting, and claims were performed.




                                                         I.1
Report Distribution




Department of Homeland Security

Secretary
Deputy Secretary
Executive Secretary
Chief of Staff
General Counsel
Under Secretary, Management
Assistant Secretary, Public Affairs
Chief Financial Officer
Deputy Chief Security Officer
DHS OIG Liaison
Assistant Secretary, Legislative Affairs

Emergency Preparedness and Response

Acting Secretary
Chief Financial Officer
Acting Director, Mitigation Division
Chief of Industry Relations, Mitigation Division
Audit Liaison

Office of Management and Budget

Chief, Homeland Security Branch
DHS OIG Program Examiner

Congress

Committee on Homeland Security and Governmental affairs
United States Senate

Committee on Homeland Security
United States House of Representatives

Congressional Oversight and Appropriations Committees, as appropriate
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG
web site at www.dhs.gov.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind
of criminal or noncriminal misconduct relative to department programs or
operations, call the OIG Hotline at 1-800-323-8603; write to Department of
Homeland Security, Washington, DC 20528, Attn: Office of Inspector
General, Investigations Division – Hotline. The OIG seeks to protect the
identity of each writer and caller.
